I

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

May 21, 2020
Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,

I.

BACKGROUND

In connection with a child pornography investigation, the FBI identified a
suspect who was found to be in possession of child pornography. The suspect told
FBI agents that he had received a video depicting an adult male’s penis in between

Plaintiff • Appellee,
No. 19-8061
(D.C. No. 2:19-CR-000) 9-ABJ-1)
(D. Wyoming)

v.

the buttocks of a toddler from an individual with the screen name “PDDDY.” The
suspect believed the adult male was anally penetrating the toddler, Child Victim 1

JUSTIN DAVID BROWN,
(“CV1”). The FBI executed a search warrant at the suspect’s residence and located
Defendant - Appellant.
child pornography on several devices. During a review of the images, the FBI
ORDER AND JUDGMENT*

identified four image files depicting the same toddler. The FBI classified two of the
images as child pornography—both images are close-ups of CVI ’s genitalia.

Before PHILLIPS, MURPHY, and McHUGH, Circuit Judges.
The FBI’s investigation identified Mr. Brown as the possible source of the
photos of CVI. During a custodial interview, Mr. Brown admitted to sexually
Justin David Brown pleaded guilty to two counts of production of child
abusing his son, CVI, and documenting this abuse with photos and videos. The abuse
pornography. After considering the factors under 18 U.S.C. § 3553(a), the district
court sentenced Mr. Brown to 360 months’ imprisonment on each count and ordered
the sentences be served consecutively. Mr. Brown appeals his sentence as

included anal penetration, Mr. Brown inserting his penis into the child’s mouth, and
inserting the child's penis into his mouth. Mr. Brown admitted to producing images
depicting the abuse of CVI. Mr. Brown further confirmed that he used the screen

procedurally and substantively unreasonable. Exercising our jurisdiction under 28
name “PDDDY,” and that he had distributed files containing images of the abuse to
U.S.C. § 1291 and 18U.S.C. § 3742(a), we affirm.
one other individual.
* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1 (G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Mr. Brown permitted investigators to access his Yahoo! e-mail account. From
a review of Mr. Brown’s e-mails, investigators learned that Mr. Brown had been
communicating with a second individual about CVI. Mr. Brown sent a close-up
photograph of a toddler’s anus in response to a request for such an image from that
2

individual. The e-mails also discussed arranging a meeting so the individual could

cousin. At the sentencing hearing, Mr. Brown’s counsel asked the district court to

sexually abuse CVI. At the sentencing hearing, Special Agent Nicole Bailey testified

take Mr. Brown’s background into account when imposing a sentence. The district

about her investigation into Mr. Brown’s conduct and her review of his e-mails and

court discussed many of the § 3553(a) factors, including the Guidelines range.

chat conversations. She explained that Mr. Brown had agreed to allow the individual

Mr. Brown’s background, the nature of the offense, the need to promote respect for

to do whatever he wanted with CVI short of injuring or killing the two-year-old.

the law, the need for deterrence, and the need to protect the public from further

Mr. Brown planned to watch the abuse of CV l.

crimes. The court then concluded that a Guidelines sentence of 720-months’

On January 18, 2019, a grand jury returned an indictment charging Mr. Brown
with two counts of production of child pornography, two counts of transportation of
child pornography, and one count of possession of child pornography. On June 24,
2019, Mr. Brown pleaded guilty to two counts of production of child pornography
without a written plea agreement.

imprisonment was appropriate because the nature of the offense conduct and
Mr. Brown’s background demonstrated a risk of recidivism absent confinement.
II.

PROCEDURAL REASONABLENESS

Mr. Brown challenges the procedural reasonableness of the district court’s
sentence on multiple grounds. First, he questions the adequacy of the district court’s

In the Prescnlence Investigation Report ("PSR”), the United States Probation

analysis of the 18 U.S.C. § 3553(a) factors and its explanation of the sentence

Office recommended a total offense level of 43 and a criminal history category of II.

imposed. Second, he asserts the district court improperly permitted Special Agent

The PSR calculated Mr. Brown’s sentencing range under the United States

Nicole Bailey to testify about the findings of her investigation at the sentencing

Sentencing Guidelines (“Guidelines”) as life imprisonment. But because the statutory

proceeding and erred by considering uncharged conduct when imposing a sentence.

maximum for each count was 30 years’ imprisonment, the Guidelines range was 720

Third, Mr. Brown claims the district court predetermined his sentence.

months’ imprisonment. As to Mr. Brown’s criminal history, the PSR noted a juvenile
adjudication related to Mr. Brown’s sexual abuse of his eight-year-old cousin. The
PSR explained that Mr. Brown was sent to the Wyoming Boys School where he
sexually abused other minor students. Neither party objected to the PSR.
Prior to sentencing, Mr. Brown filed a sentencing memorandum discussing the
sexual abuse he experienced as a child at the hands of his father and an older male
3

A.

Standard of Review

“Procedural reasonableness addresses whether the district court incorrectly
calculated or failed to calculate the Guidelines sentence, treated the Guidelines as
mandatory, failed to consider the § 3553(a) factors, relied on clearly erroneous facts.
or failed to adequately explain the sentence.” United States v. Huckins, 529 F.3d
1312, 1317 (10th Cir. 2008). “We normally reviewa defendant’s claim of procedural
4

•O*

<♦.

unreasonableness for abuse of discretion . . .United States v. Ortiz-lMzaro, 884 F.3d

court’s analysis failed to explain how the 720-month sentence is sufficient but not

1259.1262 (10th Cir. 2018). “If. however, Defendant did not preserve the procedural

greater than necessary. He specifically claims the district court “provided a

challenge below, we review only for plain error.” Id. (quotation marks omitted). “We

philosophical discussion ... on the rule of law and society, rehabilitation, and

will find plain error where there is (1) error, (2) that is plain, (3) which affects

deterrence,” but failed to analyze how the 720-month sentence promotes respect for

substantial rights, and (4) which seriously affects the fairness, integrity or public

the law, affords adequate deterrence to criminal conduct, or furthers Mr. Brown’s

reputation of judicial proceedings.” Id. (quotation marks omitted).
Mr. Brown preserved at least one of his procedural challenges in the district

rehabilitation. Aplt. Br. at 13-14. With respect to the district court’s explanation of
the sentence, Mr. Brown argues the court erred by failing to specifically address

court—he objected to the introduction of testimony from Special Agent Bailey at the

factors that may have counseled in favor of leniency. According to Mr. Brown, these

sentencing hearing as irrelevant. We thus review this alleged error for abuse of

factors include his own background as a victim of child sexual abuse; his potential to

discretion. See id. But Mr. Brown has not pointed this court to where he preserved his

return to society after corrective treatment; his cooperation with law enforcement:

other procedural challenges. See Tenth Circuit Rule 28.1(A) (“For each issue raised

and the comparison of his sentence with the sentences of his co-defendants.

on appeal, all briefs must cite the precise references in the record where the issue was
raised and ruled on.”). As there is no indication in the record that Mr. Brown

“[AJfter giving both parties an opportunity to argue for whatever sentence they
deem appropriate, the district judge should then consider all of the § 3553(a) factors

preserved these challenges before the district court, wc review them for plain error.'

to determine whether they support the sentence requested by a party.” Gall v. United

See Ortiz-Lazaro, 884 F.3d at 1262.

States, 552 U.S. 38, 49-50 (2007). But “a specific discussion of Section 3553(a) factors

li.

Adequacy of the District Court's Explunution

Mr. Brown advances several challenges to the adequacy of the district court’s

is not required for sentences falling within the ranges suggested by the Guidelines.”
United States v. Ruiz-Terrazas, 477 F.3d 1196, 1202 (l 0th Cir. 2007). Moreover, we do

analysis of the 18 U.S.C. § 3553(a) factors and its explanation of the sentence

“not demand that the district court recite any magic words to show us that it fulfilled its

imposed. With respect to the § 3553(a) factors, Mr. Brown contends the district

responsibility to be mindful of the factors that Congress has instructed it to consider.”
United States i\ Sanchez-Juarez, 446 F.3d 1109, 1115-16 (10th Cir. 2006) (quotation

1 Mr. Brown’s unpreserved challenges fail under either standard of review.
Resolving these challenges on the first prong of plain error, we conclude the district
court did not commit any error. Because the district court did not err, it also did not
abuse its discretion.

marks omitted). But we will not “presume the district court weighed a party’s arguments
in light of the § 3553(a) factors where the record provides no indication that it did so and

5

6

no clear explanation of the sentence imposed.” hi. at 1116. “After settling on the

that “(w]hen a predator is allowed to continue to functionf,] of course, that is antithetical

appropriate sentence, [the district court] must adequately explain the chosen sentence to

to the law and a rule of law.” ROA, Vol. Ill at 75. The district court went on to discuss

allow for meaningful appellate review and to promote the perception of fair sentencing.”

the severity of the conduct of conviction, which involved Mr. Brown sexually abusing

Gall, 552 U.S. at 50. A sentencing judge should articulate “enough to satisfy the appellate

and exploiting his two-year-old son. See § 3553(a)(1) (requiring the district court to

court that he has ... a reasoned basis for exercising his own legal decisionmaking

consider “the nature and circumstances of the offense”). The district court next remarked

authority.” Rita

on the need for general deterrence and deterrence specific to Mr. Brown. See id.

United States, 551 U.S. 338, 356 (2007).

Here, the sentencing court met this standard. The district court noted that it had

§ 3553(a)(2)(B) (requiring the district court to consider “the need for the sentence

reviewed the sentencing memorandum submitted by Mr. Brown’s counsel, and it gave

imposed ... to afford adequate deterrence”). And while the district court specifically

both parties an opportunity to present argument at the sentencing hearing before imposing

considered the availability of correctional treatment, it expressed concerns regarding

a within-Guidelines sentence. The district court explained the Guidelines calculations and

Mr. Brown’s potential to reoffend:

specifically indicated it was imposing a sentence in light of the § 3553(a) factors: "The
sentence as pointed out here today is one that seeks to be sufficient, but not greater than

There are some programs within the prison system. As pointed out and
suggested by [the United States], these offenses tend to repeat. There is a
rate of recidivism. It is reflected in the history of this defendant. ! am not
optimistic that all of this will turn around. I wish that it would.121

necessary considering Title 18 United States Code Section 3553(a).” ROA, Vol. Ill at
ROA, Vol. Ill at 77; see also id. § 3553(a)(2)(C) (requiring the district court to
74-75. Although the district court was not required to specifically discuss each § 3553(a)
consider “the need for the sentence imposed ... to protect the public from further
factor, Ruiz-Terrazas, 477 F.3d at 1202, its explanation at sentencing touched on several
crimes of the defendant.”); id. § 3553(a)(2)(D) (requiring the district court to
factors.
consider “the need for the sentence imposed ... to provide the defendant with needed
Contrary to Mr. Brown’s contention that the district court failed to consider
educational or vocational training, medical care, or other correctional treatment in the
“mitigating personal factors,” the district court acknowledged that Mr. Brown was a
most effective manner”). Ultimately, the district court concluded that a “very, very
victim of sexual abuse as a child. And the court noted that Mr. Brown began sexually
abusing others as a teenager. See 18 U.S.C. § 3553(a)(1) (requiring the district court to

need for the sentence “to promote respect for the law,” id. § 3553(a)(2)(A), and it opined

- 2 These comments belie Mr. Brown’s contention that the district court failed to
consider Mr. Brown’s potential to return to society with corrective treatment. The
district court did consider the availability of treatment programs in prison, but it
concluded that Mr. Brown’s prior conduct suggested he was likely to reoffend, even
with such treatment.

7

8

consider a defendant’s “history and characteristics”). The district court then addressed the

.

I *

harsh sentence” was appropriate based on both the offense conduct and Mr. Brown’s

Jarritto-Luna, 478 F.3d 1226, 1230 (10th Cir. 2007), overruled on other grounds by

background because “there will be and is a risk that now and in the future should

United Stales v. Lo/Kz-Macias, 661 F.3d 485 (10th Cir. 2011). Rather, the district court

[Mr. Brown] not be confined, [he] would be a potential risk to others.” ROA, Vol. Ill at

must simply demonstrate that it has considered the party’s arguments, Rita, 551 U.S. at

77-78. Contrary to Mr. Brown’s contentions, the district court’s analysis of these factors

356. The district court did so here by noting it had reviewed Mr. Brown’s sentencing

adequately explains why it imposed a 720-month sentence and why that sentence is

memorandum and by entertaining argument from his counsel at sentencing. The rejection

sufficient, but not greater than necessary, to achieve the goals of § 3553(a)(2).

of those arguments does not equate to the court’s failure to consider them.
In sum, the district court adequately explained its imposition of a 720-month,

Mr. Brown’s contentions, that the district court erred by failing to consider
several items that may have counseled in favor of leniency, ate also meritless. As

within-Guidelines sentence and sufficiently considered the leniency arguments

discussed, the district court did consider mitigating facts from Mr. Brown’s

Mr. Brown brought to its attention.
C.

background and his potential to return to society with corrective treatment. See supra

Consideration of Uncharged Conduct

Mr. Brown argues the district court improperly permitted Special Agent Bailey

note 2. And the district court did not err by failing to expressly address Mr. Brown’s
cooperation with law enforcement or the sentences of his co-defendants because

to testify about her investigation of Mr. Brown and erred by considering uncharged

Mr. Brown did not make those arguments until appeal to this court.•* Even if these

conduct when imposing a sentence. At the sentencing hearing, Mr. Brown objected to

arguments had been preserved, however, the district court is not required to explain why

the relevance of Special Agent Bailey’s testimony. On appeal, Mr. Brown contends.

it disagrees with a defendant’s arguments for leniency. See United States v.

“This testimony was entirely unnecessary as the United States had already provided
this uncharged conduct of Mr. Brown in their sentencing memorandum.” Aplt. Br. at

3
The district court was not required under the § 3553(a) factors to specifically
consider Mr. Brown’s cooperation with law enforcement or the sentences of his
co-defendants. Section 3553(a)(6) requires the district court to consider “the need to
avoid unwarranted sentence disparities among defendants with similar records who
have been found guilty of similar conduct.” Mr. Brown’s co-defendants received
lower sentences than Mr. Brown, but there is no indication in the record that any of
them had similar records and was found guilty of similar conduct-that is, two counts
of production of child pornography. See ROA, Vol. II at 23-24 (noting one
co-defendant pleaded guilty to attempted online enticement of a minor); ROA, Vol. II
at 52 n.4 (noting another co-defendant pleaded guilty to aid and abet production of
child pornography).

11.
We have “repeatedly stated that,” with few exceptions, “[njo limitation shall be
placed on the information concerning the background, character, and conduct of a person
convicted of an offense which a court of the United States may receive and consider for
the purpose of imposing an appropriate sentence.” United States v. Pinson, 542 F.3d 822,
836 (10th Cir. 2008) (alteration in original) (internal quotation marks omitted); see also
10

9

18 U.S.C. § 3661. And the Federal Rules of Evidence, which might permit a court to

sentences are imposed.141 Do you understand that?” ROA, Vol. Ill at 19. Second, the

exclude irrelevant or cumulative evidence, do not apply to sentencing proceedings.

district court stated. “Now, some words about supervised release. We are looking ahead a

See United States v. Scott, 529 F.3d 1290, 1298 (10th Cir. 2008); Fed. R. Evid.

long way ahead for you and a period of supervised release will be imposed.” ROA, Vol.

1101(d)(3). As such, the district court did not abuse its discretion when it permitted

III at 22.

Special Agent Bailey to testify about her investigation of Mr. Brown.
Further, under 18 U.S.C. § 3«553(a)(l), “[t]he court, in determining the

These statements do not indicate that the district court prejudged Mr. Brown’s
sentence and planned to impose a term of 30 years' imprisonment on each count to run

particular sentence to be imposed, shall consider ... the nature and circumstances of

consecutively. Rather, these statements are consistent with the requirement under Federal

the offense and the history and characteristics of the defendant.” That is, the district

Rule of Criminal Procedure 11(b)(1) that the district court inform the defendant of the

court was required to consider what Special Agent Bailey learned about Mr. Brown’s

penalties he faces before accepting the defendant’s guilty plea. The district court

past conduct, even if uncharged, as part of the "nature and circumstances” of the

correctly informed Mr. Brown that, if he pleaded guilty, he would be subject to a

charged conduct and Mr. Brown’s “history and characteristics.”

mandatory minimum of 15 years’ imprisonment on each count, and a statutory maximum

The district court did not err when it considered Special Agent Bailey’s
testimony in imposing a sentence on Mr. Brown.
J).

Predetermined Sentence

Mr. Brown claims the district court inappropriately determined it would impose a

of 30 years’ imprisonment on each count. The district court also correctly informed
Mr. Brown that “there is a minimum mandatory period of supervision of five years.”
ROA, Vol. HI at 21 (emphasis added). Even if Mr. Brown received the mandatory
minimum term of imprisonment on each count, to run concurrently, Mr. Brown faced at

lengthy sentence prior to considering the information provided at sentencing. Mr. Brown

least 15 years’ imprisonment followed by at least 5 years’ supervised release. Thus, it

bases this argument on two statements the district court made at the change of plea

was accurate for the district court to state that a period of supervised release was “a long

hearing. First, the district court stated, “It is explained here very briefly by [Mr. Brown’s

way ahead” of Mr. Brown. But nothing in the district court’s statements at the change of

attorney,] Mr. Fleener[,] the sentencing range is huge, but, nevertheless, it is serious, very
serious - from 15 years, that is 180 months, to 60 years if concurrent, at the same time,

11

4 The district court appears to have misspoken. Mr. Brown could serve as few
as 15 years if his sentences were run concurrently, or as much as 60 years if his
sentences were run consecutively. As the district court later slated, Mr. Brown faced a
mandatory minimum of 15 years’ imprisonment and a statutory maximum of 30
years’ imprisonment on each count.
12

plea hearing indicate the court had already determined the length of Mr. Brown’s

not reweigh the sentencing factors but instead ask whether the sentence fell within

sentence.

the range of rationally available choices that facts and the law at issue can fairly
III.

SUBSTANTIVE REASONABLENESS

Mr. Brown also raises challenges to the substantive reasonableness of his

support.” United States v. Blair, 933 F.3d 1271, 1274 (10th Cir. 2019) (internal
quotation marks omitted). Thus, our analysis “examine[s] whether the length of the

sentence. Specifically, Mr. Brown contends the district court’s analysis was overly

sentence is reasonable given all the circumstances of the case in light of the factors

focused on providing punishment for the offense and protecting the public from his

set forth in 18 U.S.C. § 3553(a).” Chavez, 723 F.3d at 1233 (internal quotation marks

hypothetical future crimes. Mr. Brown again points to the factors previously

omitted).
B.

discussed that he claims counseled in favor of leniency.
A.

Standard of Revieif

“(T]he weight the district court places on certain factors is reviewed for

Analysis

We presume that Mr. Brown’s 720-month, within-Guidelines sentence, is
reasonable. See id. Mr. Brown may rebut this presumption by demonstrating that the

substantive unreasonableness.” Pinson, 542 F.3d at 835-36. We review the

length of his sentence is unreasonable under the § 3553(a) factors. See Alapizco-

substantive reasonableness of a sentence for abuse of discretion. Gall, 552 U.S. at 51.

Valenzuela, 546 F.3dat 1215.

We “will reverse only if the sentence imposed was arbitrary, capricious, whimsical.

As explained supra Part II.B, the district court’s thoughtful sentencing

or manifestly unreasonable.” United States i\ DeRusse, 859 F.3d 1232, 1236 (10th

explanation discussed many of the § 3553(a) factors, including the Guidelines range,

Cir. 2017) (internal quotation marks omitted). That is, “we will reverse a

Mr. Brown’s background, the nature of the offense, the need to promote respect for

determination only if the court exceeded the bounds of permissible choice, given the

the law, the need for deterrence, and the need to protect the public from further

facts and the applicable law in the case at hand.” Id. (quotation marks omitted).
“(W]e presume a sentence is reasonable if it is within the properly calculated

crimes. Ultimately, the district court concluded that a 720-month sentence was
appropriate because the egregious nature of the offense conduct and Mr. Brown’s

guideline range.” United States v. Chavez, 723 F.3d 1226, 1233 (10th Cir. 2013).

background both demonstrate a risk that Mr. Brown will reoffend absent

“The defendant may rebut this presumption by showing that his sentence is

confinement.

unreasonable in light of the sentencing factors delineated in 18 U.S.C. § 3553(a).”
United Slates v. Alapizco-Valenzuela, 546 F.3d 1208, 1215 (10th Cir. 2008). “We do
13

district court was permitted to reason that any factors that may have counseled in
favor of leniency—such as, the sexual abuse Mr. Brown experienced as a child, the
potential for him to return to society following corrective treatment, his cooperation
with law enforcement, and the sentences of his co-defendants—were outweighed by
other factors. Namely, the district court was permitted to conclude Mr. Brown’s
history of perpetrating sexual abuse against others, the nature of the sexual abuse he
perpetrated against his two-year-old son, and the risk of him reoffending outweighed
mitigating factors and warranted a lengthy sentence. This weighing of the § 3553(a)
factors was not “arbitrary, capricious, whimsical, or manifestly unreasonable” and
was within “the bounds of permissible choice, given the facts and the applicable law
in the case at hand.” DeRusse, 859 F.3d at 1236 (quotation marks omitted). Thus, the
district court did not abuse its discretion when it imposed a 720-month sentence,
emphasizing the need to protect the public from further crimes of Mr. Brown.
IV.

CONCLUSION

We AFFIRM the district court’s judgment.
Entered for the Court
Carolyn B. McHugh
Circuit Judge

15

None of the arguments Mr. Brown advances on appeal, taken individually or
collectively, demonstrate that the district court’s conclusion was unreasonable. The
14

Case 2:19-cr-00019-ABJ Document 60 Filed 09/23/19 Page 1 of 10

ATTACHMENT 1

FILED
U,S. DISTRICT COULi
DISTRICT OF WL0H1H:.

UNITED STATES DISTRICT COURT 23 AH II: 31
FOR THE. DISTRICT OF WOM®5(gjHA RRiS, CLERK
UNITED STATES OF AMERICA
Case Number: 19-CR-19-01 -J

vs

Defendant’s. Attorney(s):
Tom Fleener

Justin David Brown

JUDGMENT IN A CRIMINAL CASE

ACCORDINGLY, the court has adjudicated that, the defendant is guilty of the following
offcnse(s):
Title and Section
18 USC §§2251(b) and (e)
18 USC §§2251(b) and (e)

Nature of Offense
Production of Child
Pornography
Production of Child
Pornography

Count
Date Offense Concluded Num beds')
October 18, 20 .18

1

January 2,2019

3

The defendant is sentenced as provided in pages 2 through 10 of this Judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of 1984.
Counts .2,4 arid 5 are dismissed on the motion of the United States.
IT IS FURTHER ORDERED that the defendant shall notify the United States Attorney for this
district within 30 days-of any change of residence or mailing address until all fines, restitution,
costs, and special assessments imposed by this judgment are fully paid.
Defendant’s USM No: 1737.0-091

September 20, 2019
Date of Imposition of Sentence
Alan B. Johnson
/
United States District.Judge

__F/z
s//f
Date /
j

WY 14

Rev. 01/15/2019

